Audit Report




OIG-10-051
SAFETY AND SOUNDNESS: Failed Bank Review of Turnberry
Bank
September 29, 2010




Office of
Inspector General
Department of the Treasury
 
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NE RAL
                                            September 29, 2010


             OIG-10-051

             MEMORANDUM FOR JOHN E. BOWMAN
                            ACTING DIRECTOR
                            OFFICE OF THRIFT SUPERVISION

             FROM:                 Susan L. Barron /s/
                                   Director, Banking Audits

             SUBJECT:              Failed Bank Review of Turnberry Bank


             This memorandum presents the results of our review of the failure of Turnberry
             Bank (Turnberry). Turnberry opened in April 1985 and had a main office in
             Aventura, Florida and three branch offices in Pinecrest, Coral Gables, and South
             Miami, Florida. The thrift was a subsidiary of Turnberry Financial Services, Inc., a
             unitary, non-diversified thrift holding company. The Office of Thrift Supervision
             (OTS) closed Turnberry and appointed the Federal Deposit Insurance Corporation
             (FDIC) as receiver on July 16, 2010. As of March 31, 2010, the thrift had $263.9
             million in total assets. FDIC estimated that the loss to the Deposit Insurance Fund
             is $34.4 million.

             Because the loss to the Deposit Insurance Fund is less than $200 million, as set
             forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
             review of the failure of Turnberry that was limited to (1) ascertaining the grounds
             identified by OTS for appointing the FDIC as receiver, and (2) determining whether
             any unusual circumstances exist that might warrant a more in-depth review of the
             loss. In performing our review we (1) reviewed documentation related to the
             appointment of FDIC as receiver, (2) reviewed OTS reports of examination, and
             (3) interviewed OTS examination personnel.

             We conducted this performance audit during August and September 2010 in
             accordance with generally accepted government auditing standards. Those
             standards require that we plan and perform the audit to obtain sufficient,
             appropriate evidence to provide a reasonable basis for our findings and conclusions
             based on our audit objectives. We believe that the evidence obtained provides a
             reasonable basis for our findings and conclusions based on our audit objectives.
OIG-CA-10-051
Page 2

Causes of Turnberry’s Failure
The primary causes of Turnberry’s failure were its (1) aggressive growth strategy,
(2) excessive concentrations in higher-risk loans which included multifamily,
nonresidential real estate, construction, land, and nonmortgage commercial loans, and
(3) insufficient capital relative to the risk level of its loans. These conditions were
exacerbated by the downturn in the real estate market in South Florida. In addition,
Turnberry did not make appropriate enhancements to risk management to support the
growth in its niche lending in residential condominium loans. For example,
management did not establish concentration limits for condominium loans. These
factors combined with the declining real estate market in South Florida resulted in
significant increases in its problem loans and loan losses. In turn, these loan losses
significantly diminished earnings and capital and, ultimately, led to Turnberry’s failure.


Conclusion
Based on our review of the causes of Turnberry’s failure and the grounds identified
by OTS for appointing FDIC as receiver, we determined that there were no unusual
circumstances surrounding the thrift’s failure or the supervision exercised by OTS.
Accordingly, we have determined that a more in-depth review of the thrift’s failure
by our office is not warranted.

We provided a draft of this memorandum to OTS management for comment. In its
response, OTS stated that the primary causes of Turnberry’s failure summarized in
this memorandum are consistent with the information contained in its reports of
examinations and documents in support of the grounds for receivership. The
response is provided as Attachment 1. A list of the recipients of this memorandum
is provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-5776 or Amni
Samson, Audit Manager, at (202) 927-0264.

Attachments
         OIG-10-051

       Attachment 1
Management Response
                                                   OIG-10-051

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of Thrift Supervision

   Acting Director
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
